Record Press Inc., 229 West 36th Street, New York, N.Y. 10018•
Tel: (212) 619-4949• Fax No. (212) 608-3141

81622
STATE OF NEW YORK,
AFFIDAVIT OF SERVICE

SS:
COUNTY OF NEW YORK

Howard Daniels being duly sworn, deposes and says that deponent is not party to the action, and is
over 18 years of age.
That on the 15th day of January 2020 deponent served 3 copies of the within
BRIEF FOR RESPONDENT

upon the attorneys at the addresses below, and by the following method:
BY FEDERAL EXPRESS NEXT BUSINESS DAY DELIVERY

Noel J. Francisco, Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov

I, Howard Daniels, declare under penalty of perjury under the laws of the United States of America
that the foregoing is true and correct, executed on January 1 5, 2020, pursuant to Supreme
Court Rule 29.5(c). All parties required to be served, have been served.

dhJJi r/J~

Howard Daniels

Sworn to me this

January 1 5, 2020
Nadia R. Oswald-Hamid
Notary Public, State of New York
No. 010S6101366
Qualified in Kings
Commission Expires November 10, 2023

Case Name: OHS v. Thuraissigiam
Docket No.: 1 9-1 61

